Office of Audits and Evaluations
Report No. AUD-14-009


The FDIC’s Response to Bank Secrecy Act
and Anti-Money Laundering Concerns
Identified at FDIC-Supervised Institutions




                                   August 2014
                                   Executive Summary
                                   The FDIC’s Response to Bank Secrecy Act and
                                   Anti-Money Laundering Concerns Identified at
                                   FDIC-Supervised Institutions
                                                                                 Report No. AUD-14-009
                                                                                            August 2014

Why We Did The Audit
FDIC-supervised financial institutions are responsible for developing and administering a program to
assure and monitor compliance with the Bank Secrecy Act (BSA) and related regulations (referred to
herein as a BSA Compliance Program). The FDIC is responsible for regularly reviewing BSA
Compliance Programs, communicating identified deficiencies and apparent violations to the institution’s
management and Board of Directors (and other regulatory authorities, as appropriate), and taking
supervisory action to address the associated risks.

The objective of this performance audit was to determine how the FDIC has responded to BSA and anti-
money laundering (AML) concerns identified in reports of examination. To address the objective, we
determined the extent and types of supervisory actions that the FDIC has taken to address BSA/AML
concerns. We also assessed the extent to which supervisory actions, including referrals of apparent
violations to other federal agencies, comply with applicable statutes; interagency policy and guidance;
and FDIC policies, procedures, and guidelines. Further, we evaluated the consistency of the Division of
Risk Management Supervision’s (RMS) Regional Offices in applying BSA/AML-related policies,
procedures, and guidelines.

Background
Within the FDIC, RMS has primary responsibility for examining financial institutions for compliance
with the BSA and related regulations. Because RMS considers BSA compliance to be a matter of safety
and soundness, each on-site risk management examination includes an assessment of the institution’s
BSA Compliance Program. Any deficiencies in BSA Compliance Programs or apparent violations of
BSA-related regulations identified by examiners are documented in reports of examination and visitation
reports that are provided to the institution’s management and Board of Directors. The FDIC’s primary
system of record for recording information about BSA examinations and related supervisory activities is
the Virtual Supervisory Information on the Net (ViSION).

Audit Results
The FDIC responds to BSA/AML concerns identified in reports of examination through the
implementation of supervisory actions. Such actions can range from examiner recommendations that
address isolated BSA/AML deficiencies to formal enforcement actions that address systemic weaknesses
in BSA Compliance Programs. Serious BSA concerns can also result in referrals to the Department of the
Treasury’s Financial Crimes Enforcement Network (FinCEN) for the issuance of Civil Money Penalties
(CMP).

During the 4-year period October 1, 2009, through September 30, 2013, the FDIC and/or applicable state
regulator cited FDIC-supervised institutions for 3,294 apparent violations of BSA-related regulations,
agreed to or issued 175 BSA-related informal and formal enforcement actions, and made 22 referrals to
FinCEN for CMPs. In addition, the reports of examination and visitation reports that we reviewed
identified the specific BSA regulations that were violated, the nature and causes of the violations, the
recommended corrective actions, and the institutions’ management responses. Further, follow-up
examinations and visitations were generally conducted in a timely manner.


                                                    i
                                      The FDIC’s Response to Bank Secrecy Act and
                                      Anti-Money Laundering Concerns Identified at
  Executive Summary
                                      FDIC-Supervised Institutions
                                                                                       Report No. AUD-14-009
                                                                                                  August 2014

Our review of the FDIC’s supervisory actions to address BSA/AML concerns at 51 non-statistically
sampled financial institutions found that the actions were generally consistent with applicable statutory
requirements, interagency policy and guidance, and FDIC policies, procedures, and guidelines. However,
in 4 of 15 cases involving BSA Compliance Program failures and/or repeat apparent violations of BSA
program requirements, stronger or earlier supervisory action in the form of a formal enforcement action
may have been warranted. Based on the results of subsequent examinations, two of the four institutions
took action to improve their BSA Compliance Programs. Although FDIC management provided a
rationale for the supervisory approach applied in these cases, promptly issuing formal enforcement
actions would have established a supervisory tenor of expectations consistent with interagency policy.
Our review of supervisory actions to address BSA/AML concerns also identified a potential control
improvement with respect to recording in ViSION the status and disposition of CMP referrals to FinCEN.

The FDIC has established a number of controls to promote consistency among RMS Regional Offices in
applying BSA/AML-related policies, procedures, and guidelines. Such controls include, for example, bi-
monthly meetings between the Regional Offices and RMS headquarters’ Anti-Money Laundering and
Risk Analysis Branch to discuss BSA/AML problem institutions, the examination report review process,
and periodic internal reviews by RMS’ Internal Control and Review Section. In addition, RMS’ Regional
Offices generally appeared to apply BSA/AML-related policies, procedures, and guidelines in a consistent
manner for the institutions that we reviewed. However, Regional Office procedures for monitoring
institutions with significant BSA/AML problems were not always current. In addition, we noted
differences among these Regional Office procedures that warrant review by RMS management.

Reviewing and addressing the above issues, as appropriate, will provide the FDIC with greater assurance
that its supervisory responses to BSA/AML concerns are consistent and compliant with applicable
statutory requirements; interagency policy and guidance; and FDIC policies, procedures, and guidelines.

We identified certain other matters that we did not consider significant in the context of the audit results,
and we communicated those separately to appropriate FDIC management officials.

Recommendations and Corporation Comments
Our report contains three recommendations addressed to the Director, RMS, that are intended to improve
RMS’ internal controls for addressing BSA/AML concerns identified during examinations of FDIC-
supervised institutions. The Director, RMS, provided a written response, dated July 31, 2014, to a draft
of this report. In the response, the Director concurred with all three of the report’s recommendations and
described planned corrective actions that address the recommendations.




                                                      ii
                                  Contents

                                                                         Page
Background                                                                 2

      Requirements for FDIC-Supervised Institutions                        3

      The FDIC’s BSA/AML Program                                           3

      Key Policies, Procedures, and Guidelines                             4

Audit Results                                                              5

Supervisory Actions to Address BSA/AML Concerns                            6

Compliance with Applicable Statutes; Interagency Policy and                7
Guidance; and FDIC Policies, Procedures, and Guidelines

      Use of Cease and Desist Orders to Address Significant BSA/AML        7
      Concerns

      Recording Information in ViSION About Referrals to FinCEN           10

Regional Office Consistency in Applying BSA/AML-related Policies,        11
Procedures, and Guidelines

      Regional Office Procedures for Monitoring Institutions with         12
      Significant BSA/AML Problems

Corporation Comments and OIG Evaluation                                   13

Appendices
     1. Objective, Scope, and Methodology                                 14
     2. Glossary of Terms                                                 18
     3. Acronyms and Abbreviations                                        21
     4. Corporation Comments                                              22
     5. Summary of the Corporation’s Corrective Actions                   24

Tables
      1. Selected Statistics Pertaining to BSA Examinations and            4
         Visitations
      2. Selected Statistics Pertaining to BSA/AML Supervisory             6
         Actions
      3. Institutions with Informal and Formal Supervisory Actions and    16
         Referrals
      4. Institutions Without Informal and Formal Supervisory Actions     17
         and Referrals
Federal Deposit Insurance Corporation                                           Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, Virginia 22226                                        Office of Inspector General


DATE:                                       August 21, 2014

MEMORANDUM TO:                              Doreen R. Eberley, Director
                                            Division of Risk Management Supervision


                                            /Signed/
FROM:                                       Stephen M. Beard
                                            Deputy Inspector General for Audits and Evaluations

SUBJECT:                                    The FDIC’s Response to Bank Secrecy Act and Anti-Money
                                            Laundering Concerns Identified at FDIC-Supervised
                                            Institutions (Report No. AUD-14-009)


This report presents the results of our audit of the FDIC’s response to Bank Secrecy Act
(BSA) and Anti-Money Laundering (AML) concerns identified during examinations of
FDIC-supervised financial institutions.1 FDIC-supervised financial institutions are
responsible for developing and administering a program to assure and monitor
compliance with the BSA and related regulations (referred to herein as a BSA
Compliance Program). The FDIC is responsible for regularly reviewing BSA
Compliance Programs, communicating identified deficiencies and apparent violations to
the institution’s management and Board of Directors (and other regulatory authorities, as
appropriate), and taking supervisory action to address the associated risks.

The audit objective was to determine how the FDIC has responded to BSA/AML
concerns identified in reports of examination. To address this objective, we determined
the extent and types of supervisory actions that the FDIC has taken to address BSA/AML
concerns. We also assessed the extent to which supervisory actions, including referrals
of apparent violations to other federal agencies, comply with applicable statutes;
interagency policy and guidance; and FDIC policies, procedures, and guidelines. Further,
we evaluated the consistency of the Division of Risk Management Supervision’s (RMS)
Regional Offices in applying BSA/AML-related policies, procedures, and guidelines.
We based our conclusions, in part, on a detailed analysis of supervisory actions taken to
address BSA/AML concerns for a non-statistical sample of 51 financial institutions.2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Appendix 1 of this report includes additional information about our
objective, scope, and methodology; Appendix 2 contains a glossary of key terms;
Appendix 3 contains a list of acronyms and abbreviations; Appendix 4 contains the

1
  The BSA is sometimes referred to as an anti-money laundering law or jointly as BSA/AML. Terms that
are underlined when first used in this report are defined in Appendix 2, Glossary of Terms.
2
  A non-statistical sample is judgmental and cannot be projected to the population. See Appendix 1 for
details regarding our sampling methodology.
Corporation’s comments on this report; and Appendix 5 contains a summary of the
Corporation’s corrective actions.


Background
In 1970, the Congress passed the Currency and Foreign Transactions Reporting Act—
commonly referred to as the BSA—to facilitate the detection and prevention of money
laundering. The statute established certain requirements for recordkeeping and reporting
by private individuals, banks, and other financial institutions to help identify the source,
volume, and movement of currency and other monetary instruments transported or
transmitted into or out of the United States or deposited in financial institutions.
Specifically, the BSA requires individuals, banks, and other financial institutions to file
currency reports with the Department of the Treasury (the Treasury), properly identify
persons conducting transactions, and maintain appropriate records of financial
transactions. Such records enable law enforcement and regulatory agencies to pursue
investigations of criminal, tax, and regulatory violations, if warranted, and provide
evidence useful in prosecuting money laundering and other financial crimes.

Increasingly sophisticated money laundering activities and growing concerns about
terrorist financing prompted the Congress to enact a number of amendments to the BSA
since its passage in 1970. One such amendment was the Uniting and Strengthening
America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism
Act of 2001 (also known as the USA PATRIOT Act). This legislation, which was
enacted after the September 11, 2001, terrorist attacks on the United States, was intended
to facilitate the prevention, detection, and prosecution of international money laundering
and the financing of terrorism.

The Treasury’s Financial Crimes Enforcement Network (FinCEN) has overall
responsibility for the administration and enforcement of the BSA. In this role, FinCEN is
responsible for (among other things) issuing regulations and interpretative guidance,
engaging in industry outreach activities, providing investigative case support to law
enforcement, and pursuing civil money penalties (CMPs) against entities and individuals,
when warranted. In addition, the federal banking agencies, including the FDIC, have
statutory authority to regulate and examine the financial institutions under their
supervision for BSA/AML compliance.3 Specifically, section 8(s) of the Federal Deposit
Insurance Act (FDI Act) (codified to 12 U.S.C. 1818(s)) requires the federal banking
agencies to prescribe BSA-related regulations, review BSA Compliance Programs during
examinations, describe any identified problems in reports of examination, and issue



3
  The federal banking agencies consist of the FDIC, the Board of Governors of the Federal Reserve System,
the Office of the Comptroller of the Currency, and the National Credit Union Administration. Other
federal agencies (i.e., the Securities and Exchange Commission, the Commodity Futures Trading
Commission, and the Internal Revenue Service) also have BSA compliance-related responsibilities for
certain entities.


                                                   2
formal orders under certain circumstances.4 FinCEN relies on the federal banking
agencies to examine financial institutions for BSA compliance and coordinates with the
agencies when pursuing CMPs.

Requirements for FDIC-Supervised Institutions
Section 326, Subpart B, Procedures for Monitoring Bank Secrecy Act Compliance, of the
FDIC Rules and Regulations requires FDIC-supervised financial institutions to establish
and maintain procedures reasonably designed to assure and monitor compliance with the
requirements of the BSA and the implementing regulations promulgated thereunder by
the Treasury at 31 Code of Federal Regulations (C.F.R.) Chapter X. These procedures,
also known as BSA Compliance Programs, must be in writing and approved by the
institution’s Board of Directors. At a minimum, each BSA Compliance Program must
include:

        a system of internal controls to assure ongoing compliance with the BSA,

        independent testing for BSA/AML compliance,

        a designated individual or individuals responsible for coordinating and monitoring
         day-to-day BSA/AML compliance, and

        training for appropriate personnel.

In addition, section 326 requires BSA Compliance Programs to include a Customer
Identification Program with risk-based procedures that enable the institution to form a
reasonable belief that it knows the true identity of its customers. The Customer
Identification Program and the four program requirements outlined above are referred to
as the “pillars” of a successful BSA Compliance Program.

The FDIC’s BSA/AML Program
Within the FDIC, RMS has primary responsibility for examining financial institutions for
compliance with the BSA and related regulations. RMS’ Anti-Money Laundering and
Risk Analysis Branch in the Washington, D.C. Office provides overall direction for the
BSA/AML program, including policy development, administration of the examination
process, and coordination with outside agencies, such as FinCEN, the Department of
Justice (DOJ), and other federal banking agencies. Because RMS considers BSA
compliance to be a matter of safety and soundness, each on-site risk management
examination includes an assessment of the institution’s BSA Compliance Program.5 In

4
  Formal orders, also known as enforcement actions, refer to Cease-and-Desist Orders (C&D) or Consent
Orders. Our report also references informal actions, which are typically Bank Board Resolutions (BBR) or
Memoranda of Understanding (MOU).
5
  In general, the FDIC is required to conduct on-site examinations of the institutions it supervises at least
once every 12 months. The annual examination interval may be increased to 18 months for small
institutions under certain circumstances.


                                                      3
addition, RMS may conduct on-site BSA visitations between examinations to determine
changes in an institution’s risk profile, monitor compliance with a corrective program,
investigate adverse or unusual situations, or determine progress in correcting deficiencies.
Table 1 contains selected statistics related to BSA examinations and visitations conducted
by the FDIC and/or applicable state regulator during the fiscal years ended September 30,
2010-2013.

Table 1: Selected Statistics Pertaining to BSA Examinations and Visitations
 Fiscal Year Ended September 30                                        2010        2011        2012      2013

 Number of FDIC-Supervised Financial Institutions                       4,785       4,651      4,516      4,354

 Number of BSA Examinations and Visitations Conducted                   3,918       3,917      3,722      3,523
  FDIC Examinations*                                                    2,722       2,815      2,678      2,413
  FDIC Visitations                                                         42          31         39         50
  State Banking Agency Examinations**                                   1,154       1,071      1,005      1,060
Source: OIG analysis of annual and quarterly reports submitted by the FDIC to FinCEN.
* Includes examinations conducted jointly with state banking agencies.
** Reflects examinations conducted by state banking agencies and reviewed by the FDIC under an established joint or
alternate examination program where the examination is not conducted jointly with the FDIC.


The FDIC’s primary system of record for recording information about BSA examinations
and related supervisory activities is the Virtual Supervisory Information on the Net
(ViSION). A number of other FDIC supervisory information systems are also used to
record BSA/AML information.

Key Policies, Procedures, and Guidelines
The federal banking agencies have issued various policies and guidance that are intended
to promote a consistent supervisory approach for addressing BSA/AML risks and
compliance at insured institutions. These include the:

        Interagency Statement on Enforcement of Bank Secrecy Act/Anti-Money
         Laundering Requirements (Interagency Policy Statement). Issued in July 2007,
         the Interagency Policy Statement sets forth the federal banking agencies’ policy
         on the circumstances in which an agency will issue a C&D to address
         noncompliance with certain BSA/AML requirements.

        Bank Secrecy Act/Anti-Money Laundering Examination Manual. Issued by the
         Federal Financial Institutions Examination Council (FFIEC) in June 2005 (and
         updated in April 2010), the manual provides an overview of BSA/AML
         requirements, risks and risk management expectations, sound industry practices,
         and examination procedures.

In addition, the FDIC has issued BSA/AML-related policies, procedures, and guidelines
to its examination staff. For example, the Risk Management Manual of Examination
Policies contains procedures for assessing BSA Compliance Programs and addressing
related concerns; the Formal and Informal Action Procedures Manual provides


                                                         4
guidelines regarding when and under what circumstances informal or formal supervisory
actions should be considered; and other RMS policies, procedures, and guidelines address
various BSA-related supervisory activities, such as issuing enforcement actions, referring
apparent violations to FinCEN, and planning for examinations and testing transactions.
In addition, RMS Regional Offices have issued supplemental procedures for monitoring
financial institutions with significant BSA/AML problems. Finally, the FDIC has issued
Financial Institution Letters and conducted industry outreach activities to address
BSA/AML issues and risks.


Audit Results
The FDIC responds to BSA/AML concerns identified in reports of examination through
the implementation of supervisory actions. Such actions can range from examiner
recommendations that address isolated BSA/AML deficiencies to formal enforcement
actions that address systemic weaknesses in BSA Compliance Programs. Serious BSA
concerns can also result in referrals to FinCEN for CMPs. During the 4-year period
October 1, 2009, through September 30, 2013, the FDIC and/or applicable state regulator
cited FDIC-supervised institutions for 3,294 apparent violations of BSA-related
regulations, agreed to or issued 175 BSA/AML-related informal and formal enforcement
actions, and made 22 referrals to FinCEN for CMPs.

Our review of the FDIC’s supervisory actions to address BSA/AML concerns at selected
financial institutions found that the actions were generally consistent with applicable
statutory requirements; interagency policy and guidance; and FDIC policies, procedures,
and guidelines. However, we did identify instances in which a formal enforcement action
to address BSA Compliance Program failures and/or repeat apparent violations of BSA
program requirements may have been warranted or taken earlier. We also identified a
potential control improvement with respect to recording in ViSION the status and
disposition of referrals to FinCEN for the issuance of CMPs.

RMS’ Regional Offices generally appeared to apply BSA/AML-related policies,
procedures, and guidelines in a consistent manner for the institutions that we reviewed.
However, Regional Office procedures for monitoring institutions with significant
BSA/AML problems were not always current. In addition, we noted differences among
these Regional Office procedures that warrant review by RMS management.

Reviewing and addressing the above issues, as appropriate, will provide the FDIC with
greater assurance that its supervisory responses to BSA/AML concerns are consistent and
compliant with applicable statutory requirements; interagency policy and guidance; and
FDIC policies, procedures, and guidelines.

We identified certain other matters that we did not consider significant in the context of
the audit results, and we communicated those separately to appropriate FDIC
management officials.



                                             5
Supervisory Actions to Address BSA/AML Concerns
Examiners are responsible for documenting deficiencies in BSA Compliance Programs
and apparent violations of BSA-related regulations in reports of examination and
visitation reports and providing these reports to the institution’s management and Board
of Directors. Deficiencies and apparent violations can often be successfully addressed
through examiner recommendations and/or discussions with the institution’s management
and Board of Directors. However, serious concerns, such as BSA Compliance Program
failures or repeat apparent violations of BSA program requirements, may require stronger
supervisory action, such as an informal or formal enforcement action. Table 2 contains
selected statistics related to BSA/AML supervisory actions taken by the FDIC for the
fiscal years ended September 30, 2010-2013.

Table 2: Selected Statistics Pertaining to BSA/AML Supervisory Actions
 Fiscal Year Ended September 30                                     2010        2011    2012   2013

 Number of Financial Institutions Cited for Apparent                490         498     463    435
 Violations

 Number of Apparent Violations Cited                                806         920     818    750

 Number of Informal and Formal Actions Imposed on FDIC-             43          42      42     48
 supervised Financial Institutions
   Formal Actions                                                   11          18      16     19
   Informal Actions                                                 32          24      26     29
Source: OIG analysis of annual and quarterly reports submitted by the FDIC to FinCEN.


Serious BSA/AML concerns can also result in referrals to FinCEN for CMPs against an
institution or its partners, directors, officers, or employees. During the 4-year period
covered in the table above, the FDIC made 22 referrals to FinCEN for the issuance of
CMPs. During the same period, a total of five BSA-related CMPs were issued against
FDIC-supervised institutions totaling $27,775,000. In cases involving apparent willful
violations of money laundering statutes, FinCEN may also engage DOJ for possible
criminal prosecution.

Our review of selected reports of examination and visitation reports for a non-statistical
sample of 51 financial institutions found that the reports identified the specific BSA
regulations that were violated, the nature and causes of the apparent violations, the
recommended corrective actions, and the institutions’ management responses. Further,
follow-up examinations and visitations were generally conducted in a timely manner.




                                                        6
Compliance with Applicable Statutes; Interagency
Policy and Guidance; and FDIC Policies, Procedures,
and Guidelines
Our review of the FDIC’s supervisory actions to address BSA/AML concerns at selected
financial institutions found that the actions were generally consistent with applicable
statutory requirements, interagency policy and guidance, and FDIC policies, procedures,
and guidelines. However, as described below, we did identify potential control
improvements with respect to the use of formal enforcement actions to address significant
BSA/AML concerns and recording the status and disposition of referrals to FinCEN for
CMPs.

Use of Cease and Desist Orders to Address Significant
BSA/AML Concerns
Section 8(s)(3) of the FDI Act states that the appropriate federal banking agency shall
issue a C&D against an insured depository institution that fails to (a) establish and
maintain a reasonably designed BSA Compliance Program or (b) correct any previously
reported problem with a BSA Compliance Program. In light of these requirements, the
federal banking agencies issued the Interagency Policy Statement that defines the
circumstances in which the agencies will issue a C&D to address noncompliance with
BSA/AML requirements. Specifically, the Interagency Policy Statement explains that the
appropriate federal banking agency will issue a C&D, based on a careful review of
relevant facts and circumstances, if an institution:

      Fails to have a written BSA Compliance Program, including a Customer
       Identification Program, that adequately covers the required program elements
       (i.e., internal controls, independent testing, designated compliance personnel, and
       training); or

      Fails to implement a BSA Compliance Program that adequately covers the
       required program elements; or

      Has defects in its BSA Compliance Program in one or more program elements
       that indicate either the written program or its implementation is not effective.

For example, an institution that has procedures to provide training to appropriate
personnel, independent testing, and a designated BSA Compliance Officer, would still be
subject to a C&D if its system of internal controls (such as customer due diligence,
procedures for monitoring suspicious activity, or an appropriate risk assessment) fails
with respect to a high-risk area or to multiple lines of business that significantly impact
the institution’s overall BSA compliance. However, other types of deficiencies in a BSA
Compliance Program or in the implementation of one or more of the required program
elements may not result in the issuance of a C&D, unless the deficiencies are so severe as
to render the BSA Compliance Program ineffective when viewed as a whole.


                                             7
The Interagency Policy Statement also states that a C&D will be issued, based on a
careful review of relevant facts and circumstances, if an institution fails to correct a
previously reported problem with its BSA Compliance Program.6 For example, failure to
take any action in response to an express criticism in a report of examination regarding a
failure to appoint a qualified BSA Compliance Officer could be viewed as an uncorrected
problem that would result in a C&D. However, a failure to correct a BSA Compliance
Program problem would not ordinarily require a C&D unless the deficiencies
subsequently found are substantially the same as those previously reported to the
institution.

Analysis of Supervisory Actions at Selected Institutions

We reviewed the FDIC’s supervisory actions to address significant BSA/AML concerns
for a non-statistical sample of 15 financial institutions. In all 15 cases, examiners had
criticized the institution in a report of examination or visitation report for failing to have
an adequate BSA Compliance Program and/or to correct a previously reported violation
of a BSA program requirement. Consistent with applicable statutory requirements, the
Interagency Policy Statement, and FDIC policies, procedures, and guidelines, we found
that the FDIC had issued (or was in the process of issuing) a BSA-related C&D or
Consent Order against 12 of the 15 institutions to address the identified concerns.
However, for two of the remaining three institutions, examiners recommended in a report
of examination that the identified BSA/AML concerns be corrected, but no BSA-related
enforcement action was taken. For the other institution, the FDIC coordinated the
adoption of a BBR. Based on our review of the circumstances for these three institutions,
formal enforcement actions may have been warranted. A brief description of the
circumstances pertaining to these three institutions follows, including RMS’ rationale for
the supervisory approach applied in these cases.

       A May 2012 report of examination stated that an institution’s BSA Compliance
        Program was inadequate; made recommendations for the institution to develop an
        adequate BSA Compliance Program to include appointing a BSA Compliance
        Officer, providing a system of internal controls, scheduling and performing
        independent reviews of the institution’s BSA Compliance Program, and providing
        and documenting training to appropriate personnel; and cited apparent violations
        of all five program requirements in section 326.8 of the FDI Act. One of the
        violations was a repeat violation. At the time of the examination, the institution
        had been operating under a Consent Order for safety and soundness issues since
        December 2008. Examiners initially intended to modify the Consent Order after
        the May 2012 examination to address the apparent BSA violations. However,
        RMS officials informed us that a modification was not issued because CMPs


6
 In order to be considered a “problem” within the meaning of section 8(s)(3)(B), a deficiency would
ordinarily involve a serious defect in one or more of the required components of the BSA Compliance
Program (or implementation thereof) that a report of examination or other written supervisory
communication identifies as requiring communication to the institution’s Board of Directors or senior
management as a matter that must be corrected.


                                                    8
    against the institution were being considered for non-compliance with the Consent
    Order.

    A December 2012 visitation report indicated that the institution was taking steps
    to improve its BSA Compliance Program, but that an independent review of the
    program had resulted in 29 recommendations for improvement. The June 2013
    report of examination indicated that the institution’s BSA Compliance Program
    was adequate, although the report also made recommendations in the areas of
    BSA training and the institution’s Enhanced Due Diligence program.

   A March 2012 report of examination cited a repeat apparent violation for an
    institution’s failure to train appropriate personnel and recommended training for
    the BSA Compliance Officer. At the time of the examination, the institution had
    been operating under a Consent Order for safety and soundness issues since July
    2010. RMS officials informed us that the Consent Order was not modified to
    address the repeat apparent violation because the institution hired a BSA
    Compliance Officer during the examination and provided training 2 months after
    the examination was completed. The BSA Compliance Officer resigned before
    the start of the April 2013 examination and a new BSA Compliance Officer was
    appointed during the examination. As a result of this examination, examiners
    cited four apparent violations, including ineffective internal controls, a failure to
    designate a BSA Compliance Officer, a failure to provide adequate BSA training,
    and a failure to file a timely suspicious activity report. Additionally, the
    April 2013 report of examination included recommendations to strengthen
    BSA/AML internal controls to adequately monitor and control the BSA function.
    A modified Consent Order was drafted but not implemented before the institution
    was closed in October 2013.

   An October 2012 report of examination cited a repeat apparent violation for an
    institution’s failure to provide adequate BSA/AML internal controls. The report
    indicated that although some effort had been made to improve the BSA
    Compliance Program after the prior examination, numerous BSA control issues
    remained, including significant turnover in the BSA Compliance Officer position,
    system limitations, noncompliance with reporting requirements, and a lack of
    familiarity with BSA regulatory requirements by institution personnel. The report
    included recommendations addressing each of these areas. The institution was
    already operating under a BBR to address apparent BSA violations identified
    during the prior examination. The BBR was modified in May 2013 to address the
    BSA/AML concerns identified during the October 2012 examination. RMS
    officials informed us that they did not pursue a Consent Order because the bank
    had made significant strides in improving its BSA Compliance Program and RMS
    considered the underlying issues leading to the repeat apparent violation to be
    different from the prior examination. The November 2013 report of examination
    indicated that the institution’s BSA Compliance Program was satisfactory,
    although the report did recommend improvements to the institution’s risk
    assessment policies.


                                          9
We also noted that a formal enforcement action to address BSA/AML concerns at one of
the 12 institutions could have been implemented sooner. Specifically, a May 2012
visitation report stated that an institution’s BSA Compliance Program was unsatisfactory
and cited an apparent violation related to internal controls. The July 2012 examination
reiterated the results of the May 2012 visitation. In October 2012, the FDIC entered into
an MOU with the institution to address (among other things) the BSA/AML concerns. A
February 2013 visitation report stated that the institution’s BSA Compliance Program
remained unsatisfactory and described continuing systemic BSA/AML weaknesses. The
report cited a repeat apparent violation related to internal controls and a new violation for
a failure to designate a BSA Compliance Officer. The August 2013 report of
examination stated that systemic BSA weaknesses continued to exist and cited two repeat
apparent violations. Based on the results of the August 2013 examination, the FDIC
issued a Consent Order in February 2014.

We recognize that in two of the four instances discussed above, the institutions took
action to improve their BSA Compliance Programs. Nevertheless, issuing a formal
enforcement action would have established a supervisory tenor of expectations consistent
with the Interagency Policy Statement.

We discussed the results of our analysis with RMS officials in the Anti-Money
Laundering and Risk Analysis Branch. During those discussions, these officials
indicated that additional steps could be taken to enhance their processes and approach for
determining supervisory responses to address significant BSA/AML concerns. For
example, the officials acknowledged that it would be prudent to document the rationale
for not pursuing a formal enforcement action to address an inadequate BSA Compliance
Program or correct a previously-reported apparent violation of a BSA program
requirement, as in the instances described above. In our view, such decisions should also
require the written concurrence of the Anti-Money Laundering and Risk Analysis
Branch. These RMS officials also indicated that they were considering the adoption of
new metrics and greater use of data analytics to facilitate the identification of BSA/AML
problems at institutions and their communications with the Regional Offices.

Recommendation

We recommend that the Director, RMS:

   1. Review and enhance, as appropriate, RMS’ processes and approach for
      determining supervisory responses to inadequate BSA Compliance Programs
      and/or repeat apparent violations of BSA program requirements.

Recording Information in ViSION About Referrals to FinCEN
RMS has established a series of Action Codes within ViSION that indicate whether an
institution is subject to certain supervisory actions or activities. For example, Action
Codes indicate whether an institution is subject to an informal action, a formal
enforcement action, a referral to FinCEN for CMPs, or has one or more repeat apparent



                                             10
BSA program violations. RMS policy requires that certain Action Codes be
accompanied by a comment in ViSION by the Washington Office.

We reviewed a non-statistical sample of 35 financial institutions with Action Codes
requiring a comment in ViSION to determine whether the required comment had, in fact,
been recorded in the system. Each of the 35 institutions had one or more Action Codes
indicating that the institution was the subject of (a) an informal action, (b) a formal
enforcement action, and/or (c) a referral to FinCEN for CMPs.7 Of the 34 institutions in
our sample that had Action Codes indicating an informal or formal enforcement action,
all contained comments related to the actions. However, ViSION did not contain
comments for 8 of 10 institutions in our sample that had Action Codes indicating a
referral to FinCEN for CMPs. Absent such comments, we were unable to determine
whether the referrals had been returned by FinCEN without action or what supervisory
action, if any, RMS planned to take.

We spoke with RMS officials in the Anti-Money Laundering and Risk Analysis Branch
about the exceptions we identified and learned that it was not their practice to include
comments in ViSION about referrals to FinCEN. Rather, information about referrals,
including their status and communications with FinCEN, is maintained outside of
ViSION in an Excel spreadsheet in the Washington, D.C. Office.8 The RMS officials
explained that the status of referrals to FinCEN generally does not change significantly
while FinCEN is reviewing a referral and that including comments in ViSION about
referrals would be of little benefit. Nevertheless, RMS officials acknowledged that their
practices in this area should be consistent with RMS policy and that they would
coordinate with the Regional Offices to determine whether current practices, policy, or
both, should be modified. As part of this effort, RMS should clarify the nature of
information that should be maintained about referrals to ensure consistency.

Recommendation

We recommend that the Director, RMS:

    2. Review and modify, as appropriate, RMS policy and practices for recording the
       status and disposition of referrals to FinCEN for CMPs.


Regional Office Consistency in Applying BSA/AML-
related Policies, Procedures, and Guidelines
The FDIC has established a number of controls to promote consistency among RMS
Regional Offices in applying BSA-related policies, procedures, and guidelines. Such

7
  Nine of the institutions had two Action Codes (i.e., a formal enforcement action and a referral to FinCEN
for CMPs).
8
  With respect to the eight exceptions we identified, RMS officials informed us that FinCEN had returned
six referrals to the FDIC without taking action. FinCEN was still reviewing the remaining two referrals.


                                                    11
controls included, for example, bi-monthly meetings between the Regional Offices and
the Anti-Money Laundering and Risk Analysis Branch to discuss BSA/AML problem
institutions, the examination report review process, and periodic internal reviews by
RMS’ Internal Control and Review Section. In addition, RMS’ Regional Offices
generally appeared to apply BSA-related policies, procedures, and guidelines in a
consistent manner for the institutions that we reviewed. However, Regional Office
procedures for monitoring institutions with significant BSA/AML problems, including
maintenance of BSA Supervisory Watchlists, were not always current. In addition, we
noted differences among these Regional Office procedures that warrant review by RMS
management. Reviewing and updating these procedures will promote consistency in
addressing BSA/AML issues across the Regional Offices.

Regional Office Procedures for Monitoring Institutions with
Significant BSA/AML Problems
Each of RMS’ six Regional Offices has established written procedures to help identify
and track financial institutions with significant BSA/AML problems. These procedures
generally include the establishment and maintenance of BSA Supervisory Watchlists to
monitor institutions with significant BSA/AML problems and facilitate the bi-monthly
meetings with the Anti-Money Laundering and Risk Analysis Branch. The Regional
Office procedures complement other RMS controls designed to promote financial
institution compliance with BSA/AML requirements.

We reviewed the Regional Office procedures and noted that they did not fully reflect
current practices in three of the six regions. In addition, we identified a number of
variations in the procedures among the Regional Offices, including those described
below.

      BSA Supervisory Watchlist. Procedures in four Regional Offices specifically
       addressed the BSA Supervisory Watchlist; however, procedures in the two
       remaining Regional Offices did not.

      Identification of Problem Institutions. Procedures for determining which
       financial institutions should be on the BSA Supervisory Watchlist varied among
       the Regional Offices.

      Monitoring and Tracking. Procedures in two Regional Offices addressed
       adding and removing financial institutions from the BSA Supervisory Watchlists;
       however, procedures in the four remaining Regional Offices did not.

      Notification. Procedures in four Regional Offices referenced the bi-monthly
       meetings with the Anti-Money Laundering and Risk Analysis Branch to discuss
       BSA/AML problem institutions; however, procedures in the two remaining
       Regional Offices did not.




                                           12
Our review of the Regional Office procedures and discussions with Regional Office
personnel also identified potential best practices that may benefit all Regional Offices.
We provided this information to the Anti-Money Laundering and Risk Analysis Branch
during the audit for its consideration.

Up-to-date policies and procedures are an important internal control for ensuring that
processes are repeatable and for reducing operational risk associated with staff changes.
While we recognize that differences in Regional Office procedures may evolve over time
to accommodate the unique characteristics of each region’s institutions, the variations we
noted warrant review by RMS management to ensure that a consistent approach is being
taken to identify, track, and monitor financial institutions with significant BSA/AML
problems.

Recommendation

We recommend that the Director, RMS:

   3. Review and update, as appropriate, Regional Office procedures for monitoring
      financial institutions with significant BSA/AML problems to ensure consistency.


Corporation Comments and OIG Evaluation
The Director, RMS, provided a written response, dated July 31, 2014, to a draft of this
report. The response is presented in its entirety in Appendix 4. In the response, the
Director concurred with all three of the report’s recommendations. In a separate
communication, an RMS official indicated that all corrective actions described in the
response would be completed by the end of 2014. A summary of the Corporation’s
corrective actions is presented in Appendix 5. The planned corrective actions are
responsive to the recommendations, and the recommendations are resolved.




                                            13
                                                                             Appendix 1

               Objective, Scope, and Methodology
Objective

The objective of this performance audit was to determine how the FDIC has responded to
BSA/AML concerns identified in reports of examination. To address the audit objective,
we:

     determined the extent and types of supervisory actions that the FDIC took to
      address BSA/AML concerns;

     assessed the extent to which supervisory actions, including referrals of apparent
      violations to other federal agencies, complied with applicable statutes;
      interagency policy and guidance; and FDIC policies, procedures, and guidelines;
      and

     evaluated the consistency of RMS’ Regional Offices in applying BSA/AML-
      related policies, procedures, and guidelines.

We conducted the audit from April 2013 to May 2014 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objective.

Scope and Methodology

To gain an understanding of the FDIC’s process and approach to responding to
BSA/AML concerns identified in reports of examination, we:

      Identified and became familiar with BSA/AML statutes; interagency policy and
       guidance; and FDIC policies, procedures, and guidelines. Such criteria included,
       but was not limited to:

            o Section 8(s), Compliance with Monetary Transaction Recordkeeping and
              Report Requirements, of the FDI Act;
            o Section 326.8, Bank Secrecy Act Compliance; section 353, Suspicious
              Activity Reports; and section 337.12, Frequency of Examination, of the
              FDIC Rules and Regulations;
            o Treasury’s 31 CFR Chapter X;
            o The Interagency Statement on Enforcement of Bank Secrecy Act/Anti-
              Money Laundering Requirements;
            o The Memorandum of Understanding between the federal banking agencies
              and FinCEN regarding information sharing;



                                            14
                                                                             Appendix 1

               Objective, Scope, and Methodology
           o The Bank Secrecy Act/Anti-Money Laundering Examination Manual
             published by the FFIEC; and
           o Relevant provisions of the FDIC’s Risk Management Manual of
             Examination Policies, the Case Manager Procedures Manual, and the
             Formal and Informal Action Procedures Manual, and various other RMS
             policies, procedures, and guidelines.

      Conducted a site visit to RMS’ Dallas Field Office in February 2013 to review
       selected BSA examination workpapers (which were not included in our audit
       sample described below) and interviewed RMS staff about the BSA examination
       process, including how deficiencies and apparent violations are addressed.

      Interviewed officials in RMS’ Anti-Money Laundering and Risk Analysis Branch
       in Washington, D.C. to obtain a program-level perspective on BSA/AML risks
       and issues.

      Interviewed FDIC Legal Division staff in the Atlanta, Dallas, New York, and San
       Francisco Regional Offices and in the Boston Area Office to discuss the FDIC’s
       approach and processes for issuing informal actions, formal enforcement actions,
       and referrals to FinCEN for CMPs.

      Spoke with FinCEN officials regarding their coordination with the FDIC in
       addressing BSA/AML issues at FDIC-supervised institutions.

      Contacted officials in the Treasury OIG to discuss their audit work related to
       BSA/AML matters.

As discussed further below, we relied on data in ViSION for purposes of determining the
extent and types of supervisory actions taken by the FDIC to address BSA/AML
concerns and to select a sample of institutions for detailed analysis. We determined that
the data in this system was sufficiently reliable for these purposes by comparing selected
data to various reports and documents generated by other information systems and to
reports of examination and through discussions with management.

With respect to determining the extent and types of supervisory actions taken by the
FDIC to address BSA/AML concerns, we reviewed quarterly and annual reports that the
FDIC submitted to FinCEN covering the period October 1, 2009, to September 30, 2013,
and reports generated by ViSION that identify (a) institutions with one or more apparent
violations of BSA/AML requirements and (b) certain types of supervisory actions
applicable to those institutions. The ViSION reports we reviewed were generated as of
April 2, 2013, and covered all FDIC-supervised financial institutions with an examination
start date between January 1, 2011, and December 31, 2012. A total of 938 institutions
were included in the reports.



                                            15
                                                                                             Appendix 1

                  Objective, Scope, and Methodology
To assess the extent to which the FDIC’s supervisory actions complied with applicable
statutes; interagency policy and guidance; and FDIC policies, procedures, and guidelines,
we analyzed the supervisory actions pertaining to a non-statistical sample of 51 FDIC-
supervised financial institutions. Of particular note, our audit procedures included
analyses to determine whether the FDIC had complied with selected provisions of
section 8(s) of the FDI Act and whether institutions were in compliance with section
326.8 of the FDIC Rules and Regulations. A description of our sampling methodology
follows.

We initially selected 74 institutions from the universe of 938 institutions in the ViSION
reports described above. The 74 institutions consisted of (a) 46 institutions with an
informal or formal BSA/AML enforcement action and/or a referral to FinCEN for CMPs
and (b) 28 institutions without a supervisory action or referral to FinCEN. We selected
the group of 46 institutions by randomly choosing up to 10 institutions under the
supervision of each RMS Regional Office.9 We chose these institutions in such a manner
as to obtain a mix of supervisory action types. We selected the group of 28 institutions
by randomly choosing up to 5 institutions under the supervision of each RMS Regional
Office. We consulted with a statistician in the FDIC’s Division of Insurance and
Research in developing our sampling methodology.

After analyzing the supervisory actions for 51 of the 74 institutions that we initially
selected, it became evident to us that we had sufficient evidence to address our audit
objective. Tables 3 and 4 provide a breakdown of the number of institutions that we
initially selected and the number of institutions that we actually reviewed.

Table 3: Institutions with Informal and Formal Supervisory Actions and Referrals
 Regional       C&Ds or          Informal   Referrals to  Total        Total
 Office         Consent          Actions    FinCEN for    Initially    Reviewed
                Orders                      CMPs          Selected
 Atlanta        4                3          3             10           10
 Chicago        4                3          3             10           10
 Dallas         3                3          0             6            3
 Kansas City    3                3          0             6            3
 New York       1                3          3             7            4
 San            3                3          1             7            5
 Francisco
 Totals         18               18         10            46           35
Source: OIG analysis of ViSION reports.




9
  We selected at least three institutions per Regional Office for each category of supervisory action during
the period of our review, but in some regions there were fewer than three institutions in each category. In
those cases, we selected all of the supervisory actions that existed in those categories.


                                                     16
                                                                           Appendix 1

              Objective, Scope, and Methodology
Table 4: Institutions Without Informal and Formal Supervisory Actions and Referrals
 Regional Office                Total Initially Selected Total Reviewed
 Atlanta                        4                        4
 Chicago                        4                        4
 Dallas                         5                        2
 Kansas City                    5                        2
 New York                       5                        2
 San Francisco                  5                        2
 Total                          28                       16
Source: OIG analysis of ViSION reports.

Our analysis of the 51 institutions was generally limited to information in reports of
examination, visitation reports, and the FDIC’s ViSION and other supervisory
information systems. Our analysis did not include a review of examination workpapers
to determine whether examiners had identified all relevant BSA/AML deficiencies and
apparent violations or made all relevant referrals to FinCEN. However, we did speak
with RMS officials in the Anti-Money Laundering and Risk Analysis Branch to discuss
the results of our analyses and the exceptions we identified.

With respect to our assessment of the FDIC’s consistency in applying BSA-related
policies, procedures, and guidelines, we used the same sample of 51 institutions
described above. We also reviewed Regional Office procedures for identifying and
tracking financial institutions with significant BSA/AML problems (including those on
the BSA Supervisory Watchlist). Further, we spoke with RMS officials in all six
Regional Offices about the procedures.

We performed our audit work at the FDIC’s offices in Dallas, Texas; Arlington, Virginia;
and Washington, D.C.




                                           17
                                                                           Appendix 2


                             Glossary of Terms
      Term                                        Definition

Apparent         In the context of a BSA examination, an apparent violation is a
Violation        failure on the part of a financial institution to comply with a relevant
                 provision of a BSA-related regulation, most notably Treasury’s 31
                 C.F.R. Chapter X, which establishes the minimum recordkeeping
                 and reporting requirements for currency and foreign transactions by
                 financial institutions, or section 326, Subpart B, Procedures for
                 Monitoring Bank Secrecy Act Compliance, of the FDIC Rules and
                 Regulations. Apparent violations that are considered to be
                 significant should be reviewed by the FDIC for referral to FinCEN
                 for issuance of CMPs. Apparent violations should be communicated
                 to the institution via a written communication, most often through
                 the report of examination, and reported to FinCEN.
Bank Board       An informal commitment adopted by a financial institution’s Board
Resolution       of Directors (often at the request of the FDIC) directing the
(BBR)            institution’s personnel to take corrective action regarding specific
                 deficiencies. BBRs may be used to strengthen and monitor an
                 institution’s progress with regard to a particular component rating or
                 activity.
Bank Secrecy     In 1970, Congress passed the Currency and Foreign Transactions
Act and Anti-    Reporting Act, commonly referred to the BSA (Public Law 91-508).
Money            This legislation established reporting and other AML requirements
Laundering       for domestic financial institutions. Due to the increased
(BSA/AML)        sophistication of money laundering activities and concerns about
                 terrorist financing, Congress expanded AML legislation to cover
                 more types of institutions involved in a broader range of financial
                 transactions. For example, in 2001, Congress enacted the USA
                 PATRIOT Act to strengthen reporting and AML requirements for
                 securities firms, futures firms, money services businesses, and other
                 financial institutions. The BSA is sometimes referred to as an AML
                 statute, or jointly as BSA/AML.
BSA Compliance An individual designated as being responsible for managing BSA
Officer          compliance.
BSA Supervisory Listings of FDIC-supervised financial institutions that have
Watchlists       significant BSA/AML problems. Each RMS Regional Office
                 maintains its own BSA Supervisory Watchlist. The watchlists serve
                 as management tools to facilitate the oversight and monitoring of the
                 institutions.
Cease-and-Desist A formal enforcement action issued to stop violations of law, rule, or
Order (C&D) or regulation, or unsafe or unsound banking practices, as well as to
Consent Order    require affirmative action to correct any conditions resulting from
                 such violations or practices. C&Ds may be issued after notice and
                 hearing, and Consent Orders after stipulation by the institution. By


                                           18
                                                                          Appendix 2


                          Glossary of Terms
                  ordering an institution to cease and desist from violations or
                  practices and/or to take affirmative actions, the FDIC may prevent
                  the institution’s problems from reaching such serious proportions as
                  to require more severe corrective measures. Sections 8(b) and
                  8(s)(3) of the FDI Act authorize the FDIC to issue formal orders.
Civil Monetary    Section 8(i) of the FDI Act grants the FDIC authority to impose
Penalties (CMP)   CMPs against insured depository institutions and institution-
                  affiliated parties. CMPs may be assessed for violations of final and
                  temporary orders, written agreements with the FDIC, and laws and
                  regulations; unsafe and unsound practices; and breaches of fiduciary
                  duty. When significant apparent violations of the BSA, or cases of
                  willful and deliberate violations of 31 C.F.R. Chapter X or section
                  326.8 of the FDIC Rules and Regulations are identified at a state
                  nonmember financial institution, examiners should determine if a
                  recommendation for CMPs is appropriate. The FDIC coordinates
                  the imposition of CMPs for apparent violations of BSA regulations
                  with FinCEN.
Customer          Federal regulations require financial institutions to develop and
Identification    implement a written, board-approved Customer Identification
Program           Program, appropriate for its size and type of business. Such
                  programs must include, at a minimum, procedures for verifying a
                  customer’s true identity to the extent reasonable and practicable and
                  defining the methodologies to be used in the verification process;
                  collecting specific identifying information from each customer when
                  opening an account; responding to circumstances and defining
                  actions to be taken when a customer’s true identity cannot be
                  appropriately verified with “reasonable belief”; maintaining
                  appropriate records during the collection and verification of a
                  customer’s identity; verifying a customer’s name against specified
                  terrorist lists; and providing customers with adequate notice that the
                  bank is requesting identification to verify their identities.
Deficiency        In the context of a BSA examination, a deficiency is a weakness in a
                  financial institution’s BSA Compliance Program. Deficiencies
                  should be communicated to the institution via a written
                  communication, such as a report of examination, visitation report, or
                  other correspondence.
Enhanced Due      Enhanced due diligence is a review performed for higher-risk
Diligence         customers of a financial institution. Such reviews are especially
                  critical in understanding higher-risk customer’s anticipated
                  transactions and implementing a suspicious activity monitoring
                  system that reduces the bank’s reputation, compliance, and
                  transaction risks. Higher-risk customers and their transactions
                  should be reviewed more closely at account opening and more
                  frequently throughout the term of their relationship with the bank.


                                         19
                                                                            Appendix 2


                           Glossary of Terms
Financial Crimes   A bureau within the Treasury established to safeguard the financial
Enforcement        system from illicit use and combat money laundering and promote
Network            national security through the collection, analysis, and dissemination
(FinCEN)           of financial intelligence and strategic use of financial authorities.
                   FinCEN carries out its mission by receiving and maintaining
                   financial transactions data, analyzing and disseminating that data for
                   law enforcement purposes, and building global cooperation with
                   counterpart organizations in other countries and with international
                   bodies. The Director of FinCEN has delegated authority to
                   implement, administer, and enforce compliance with the BSA and
                   associated regulations. FinCEN relies on the federal banking
                   agencies to examine the financial institutions they supervise for
                   compliance with the BSA and coordinates with these agencies on
                   CMPs and criminal matters.
Memorandum of      An informal agreement between an institution and the FDIC
Understanding      intended to address and correct identified weaknesses at a financial
(MOU)              institution. State banking authorities may also be parties to MOUs.
                   The FDIC often uses MOUs instead of BBRs, especially when there
                   is reason to believe that the deficiencies need a more structured
                   program or specific terms to effect corrective action.
Referrals          Financial institutions that are determined to be substantially
                   noncompliant with the BSA are considered for referral to FinCEN
                   for the issuance of CMPs. In general, referrals are considered when
                   the types and nature of apparent violations of the BSA expose the
                   institution to a heightened level of risk for potential money
                   laundering activity, demonstrate a willful or flagrant disregard of the
                   requirements of the BSA, or result from a nonexistent or seriously
                   deficient BSA Compliance Program. Referrals to FinCEN do not
                   preclude the FDIC from exercising its authority to take supervisory
                   action against an institution when apparent violations of BSA
                   regulations are identified.
Virtual            An FDIC information system that provides access to a broad range
Supervisory        of information related to insured financial institutions in support of
Information on     the Corporation’s insurance and supervision programs. RMS
the Net            personnel use the system to perform supervisory-related functions,
(ViSION)           such as tracking applications, accessing examination information,
                   and monitoring enforcement actions. Analysts in the Division of
                   Insurance and Research also rely on information in ViSION to
                   perform insurance-related functions, such as analyzing trends in the
                   banking industry and calculating deposit insurance assessment rates
                   for financial institutions.




                                          20
                                                                     Appendix 3


                Acronyms and Abbreviations

Acronym/Abbreviation: Explanation:
BBR                   Bank Board Resolution
BSA/AML               Bank Secrecy Act and Anti-Money Laundering
C&D                   Cease and Desist Order
CMP                   Civil Money Penalty
CFR                   Code of Federal Regulations
DOJ                   Department of Justice
FDI Act               Federal Deposit Insurance Act
FDIC                  Federal Deposit Insurance Corporation
FFIEC                 Federal Financial Institutions Examination Council
FinCEN                Financial Crimes Enforcement Network
MOU                   Memorandum of Understanding
RMS                   Division of Risk Management Supervision
The Treasury          Department of the Treasury
ViSION                Virtual Supervisory Information on the Net




                                     21
                       Appendix 4


Corporation Comments




         22
                       Appendix 4


Corporation Comments




         23
                                                                                              Appendix 5


      Summary of the Corporation’s Corrective Actions
This table presents corrective actions taken or planned by the Corporation in response to
the recommendations in the report and the status of the recommendations as of the date of
report issuance.


    Rec.     Corrective Action:                  Expected         Monetary        Resolved:a       Open or
    No.      Taken or Planned                   Completion        Benefits        Yes or No        Closedb
                                                   Date

      1      RMS will review and update,         12/31/2014          N/A              Yes            Open
             as appropriate, Regional
             Office practices for ensuring
             compliance with BSA/AML
             enforcement guidance.
      2      RMS will review and                 12/31/2014          N/A              Yes            Open
             modify, as appropriate,
             policy and practices for
             recording the status and
             disposition of CMP referrals
             to FinCEN. RMS will also
             request updates from
             FinCEN regarding the status
             of FinCEN’s enforcement
             cases in order to update
             FDIC records.
      3      RMS will review and update,         12/31/2014          N/A              Yes            Open
             as appropriate, Regional
             Office procedures for
             monitoring financial
             institutions with significant
             BSA/AML problems to
             promote consistency.
a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but alternative action meets the intent
                   of the recommendation.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
  Recommendations will be closed when (a) Corporate Management Control notifies the OIG that corrective
actions are complete or (b) in the case of recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.




                                                       24
